          Office of Inspector General




September 25, 2006

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Southeast Area (Report Number DR-MA-06-007)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Southeast Area (Project Number
06XG016DR002). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Southeast Area. This is one in a series of reports on Delivery and
Retail Operations issued under the Value Proposition Agreement between the Vice
President, Delivery and Retail, and the U.S. Postal Service Office of Inspector General
(OIG) Delivery and Retail directorate. The information in this report will be included in a
nationwide capping report assessing implementation of Delivery and Retail SOP.

Southeast Area, selected districts and delivery and retail unit officials implemented the
Delivery and Retail SOP for city and rural delivery and Function 4 (customer service)
operations. Implementation included training supervisors and managers, developing
action steps for “vital few” units and outlining future plans to complete remaining reviews
and certifications by the end of fiscal year (FY) 2006. Officials also certified delivery
and retail units under Morning Standard Operating Procedures (AMSOP) and Rural
Delivery Standard Operating Procedures (RDSOP) and conducted Function 4 reviews.
Based on our review of the city and rural delivery and Function 4 SOP, the Southeast
Area implemented each component of the SOP except for selected aspects of AMSOP,
RDSOP, Function 4 Business Reviews, and Retail Data Mart Window Operations
Survey (RDM WOS). During our review, officials implemented corrective action to
improve the Function 4 Business Review and RDM WOS components.

The AMSOP component needs improvement because area officials did not have a
specific plan to approve corrective action steps for “vital few” units that do not achieve
AMSOP certification. In addition, the implementation of RDSOP needs improvement
because area officials had identified neither all units for their districts with 10 or more
rural routes for certification under the RDSOP, nor the routes for self-reviews. As a
result, the U.S. Postal Service goal of improving units’ efficiency in an evaluated
workload environment and alignment of actual to standard hours could be adversely
impacted.
In addition, area officials were continuing to address the challenges associated with the
“vital few” performers. Officials expressed concern that the SOP used to identify and
rank “vital few” units did not include an evaluation of delivery units based on equal size
and complexity. We recognize area officials’ concern and plan to address this issue in
the capping report to Postal Service Headquarters.

We recommended the Vice President, Southeast Area, direct the Area Manager,
Delivery Programs Support, to review, approve, and monitor completion of corrective
action plan steps for “vital few” units to achieve AMSOP certification. We also
recommended the Vice President, Southeast Area, direct the Area Manager, Delivery
Programs Support, to identify all units with 10 or more rural routes for certification and
routes for self-review, and then monitor the results.

Management agreed with our recommendations and has initiatives in progress,
completed, or planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    Elizabeth Schaefer
    Kenneth Winters
    Nancy Digiacoma
    Dennis Carothers
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures –                      DR-MA-06-007
 Southeast Area


                                   TABLE OF CONTENTS

 Executive Summary                                                        i

 Part I

 Introduction                                                             1

     Background                                                           1
     Objective, Scope, and Methodology                                    3
     Prior Audit Coverage                                                 4

 Part II

 Results                                                                  5

      Implementation of Standard Operating Procedures in the Southeast    5
      Area

      Morning Standard Operating Procedures                               7
      Recommendation                                                      8
      Management’s Comments                                               8
      Evaluation of Management’s Comments                                 8

      Rural Delivery Standard Operating Procedures                        9
      Recommendation                                                      9
      Management’s Comments                                               9
      Evaluation of Management’s Comments                                 9

      Function 4 Business Reviews                                        10

      Retail Data Mart Window Operations Survey                          12

      “Vital Few” List                                                   13

 Appendix A. Prior Audit Coverage                                        15

 Appendix B. Southeast Area Implementation of Delivery and Retail        18
             Standard Operating Procedures

 Appendix C. Management’s Comments                                       19
Delivery and Retail Standard Operating Procedures –                                                     DR-MA-06-007
 Southeast Area


                                       EXECUTIVE SUMMARY
    Introduction                    This report presents the results of our review of the
                                    implementation of Delivery and Retail Standard Operating
                                    Procedures (SOP) in the Southeast Area (Project Number
                                    06XG016DR002). Our overall objective was to assess
                                    implementation of Delivery and Retail SOP in the Southeast
                                    Area.

    Results in Brief                Southeast Area, selected districts and delivery and retail
                                    unit officials implemented the Delivery and Retail SOP for
                                    city and rural delivery and Function 4 (customer service)
                                    operations. Implementation included training supervisors
                                    and managers, developing action steps for “vital few”1 units
                                    and outlining future plans to complete remaining reviews
                                    and certifications by the end of fiscal year (FY) 2006.
                                    Officials also certified delivery and retail units under Morning
                                    Standard Operating Procedures (AMSOP) and Rural
                                    Delivery Standard Operating Procedures (RDSOP), and
                                    conducted Function 4 reviews. Based on our review of the
                                    city and rural delivery and Function 4 SOP, the Southeast
                                    Area implemented each component of the SOP except for
                                    selected aspects of AMSOP, RDSOP, Function 4 Business
                                    Reviews, and Retail Data Mart Window Operating Survey
                                    (RDM WOS). Officials implemented corrective action during
                                    our review to improve the Function 4 Business Review and
                                    RDM WOS components.

                                    The AMSOP component needs improvement because area
                                    officials did not have a specific plan to approve corrective
                                    action steps for “vital few” units that do not achieve AMSOP
                                    certification. In addition, the implementation of RDSOP
                                    needs improvement because area officials had identified
                                    neither all units with 10 or more rural routes for certification
                                    under the RDSOP, nor the routes for self-reviews. As a
                                    result, the Postal Service goal of improving units’ efficiency
                                    in an evaluated workload environment and alignment of
                                    actual to standard hours could be adversely impacted.




1
 “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4 (customer
service) operations and require specific management actions.



                                                           i
Delivery and Retail Standard Operating Procedures –                                  DR-MA-06-007
 Southeast Area



                                In addition, area officials were continuing to address the
                                challenges associated with the “vital few” performers.
                                Officials expressed concern that the SOP used to identify
                                and rank “vital few” units did not include an evaluation of
                                delivery units based on equal size and complexity. We
                                recognize area officials’ concern and plan to address this
                                issue in the capping report to postal headquarters officials.

 Summary of                     We recommended the Vice President, Southeast Area,
 Recommendations                direct the Area Manager, Delivery Programs Support, to
                                review, approve, and monitor completion of corrective action
                                plan steps for “vital few” units to achieve AMSOP
                                certification. We also recommended the Vice President,
                                Southeast Area, direct the Area Manager, Delivery
                                Programs Support, to identify all units with 10 or more rural
                                routes for certification and routes for self-review, and then
                                monitor the results.

 Summary of                     Management agreed with the findings and
 Management’s                   recommendations. Management completed site visits to
 Comments                       each district to review corrective action plans and to make
                                certain corrective action plans were executed properly.
                                Management provided additional details in subsequent
                                discussions regarding the planned oversight process that
                                included assigning a designee at the area level to:
                                (1) provide training to district offices and delivery units,
                                (2) require district offices to submit corrective action plans to
                                the area for review when delivery units do not achieve
                                AMSOP certification, and (3) track the progress of the
                                corrective action plans to verify completion. Further,
                                management developed a spreadsheet to identify all units
                                with 10 or more rural routes and routes for self-review.
                                Management plans to use the spreadsheet to track and
                                monitor RDSOP certification results. Management’s
                                comments, in their entirety, are included in Appendix C.

 Overall Evaluation of          Management’s comments are responsive to the
 Management’s                   recommendations and the actions taken should correct the
 Comments                       issues identified in the findings.




                                                      ii
Delivery and Retail Standard Operating Procedures –                                                     DR-MA-06-007
 Southeast Area


                                              INTRODUCTION
    Background                      Each day the U.S. Postal Service receives and delivers over
                                    700 million pieces of mail. The Postal Service delivers mail
                                    to 144 million city and rural addresses across a network of
                                    37,000 post offices and retail outlets. To receive and deliver
                                    the mail, the Postal Service has an annual field budget of
                                    approximately $60 billion of which about 51 percent is used
                                    for delivery and retail operations. Annual salary and
                                    benefits in fiscal year (FY) 2006 for rural and city carriers
                                    total around $22 billion and approximately $8 billion for
                                    Function 4 (customer service) operations. The Southeast
                                    Area’s FY 2006 budget is $2.87 billion2 for city and rural
                                    delivery operations and $1.04 billion for Function 4
                                    operations. The area is responsible for nine districts and
                                    services approximately 1,027 delivery and retail units.3

                                    To ensure the efficient use of resources, the Vice President,
                                    Delivery and Retail, issued a letter on September 30, 2005,
                                    stating that all delivery and retail units will officially
                                    implement the Standard Operating Procedures (SOP)
                                    beginning in FY 2006 to establish standard practices
                                    for managing all delivery and retail functions. In
                                    November 2005, postal senior management officials
                                    requested audit assistance from the U.S. Postal Service
                                    Office of Inspector General (OIG) to assess implementation
                                    of the SOP and determine how the area is monitoring units
                                    on the “vital few” list. In response to postal senior
                                    management officials’ request, the OIG began its
                                    nationwide review of the Postal Service’s implementation of
                                    the SOP in January 2006.

                                    The SOP consists of procedures to manage city and rural
                                    delivery and Function 4 operations. Postal officials must
                                    implement the SOP consistently and establish a review
                                    process to validate that the programs are operable.
                                    Officials must also take appropriate responsibility for
                                    developing plans that will assure that the SOP are
                                    understood and functional.




2
 This total consists of $1.81 billion for city delivery and $1.06 billion for rural delivery operations.
3
 Some of these units do not have all three components – city delivery, rural delivery, and retail operations.
Therefore, they do not have budgeted workhours for all three operations.



                                                           1
Delivery and Retail Standard Operating Procedures –                                                       DR-MA-06-007
 Southeast Area



                                     Morning (AM) SOP is an important component of city
                                     delivery SOP. AMSOP standardizes daily city carrier
                                     functions to align actual workhours to base workhours. The
                                     FY 2006 goal is to certify4 all level 225 and above Delivery
                                     Operations Information System (DOIS) sites by
                                     September 30, 2006.

                                     For rural delivery, the SOP standardizes daily rural carrier
                                     functions to align actual workhours to standard workhours.
                                     The FY 2006 goal is to certify6 75 percent of units with 10 or
                                     more rural routes and those units identified as “vital few.”

                                     The Function 4 operations goal is to provide a standardized
                                     and comprehensive structure for the development of an
                                     integrated review cycle that continually identifies and
                                     quantifies savings opportunities. In addition, management
                                     should conduct Function 4 Business Reviews7 to identify
                                     units with the largest opportunity for workhour
                                     improvements.

                                     A key component of the SOP is the identification of “vital
                                     few” units. These units have the largest opportunity for
                                     improvement in city and rural delivery and Function 4
                                     operations and require specific management actions.
                                     Postal Service Headquarters provides area officials with the
                                     “vital few” list quarterly based on the performance of the
                                     previous quarter. The area monitors the “vital few” units
                                     and develops action plans to correct their performance
                                     issues in city and rural delivery and Function 4 operations.

                                     Postal Service Headquarters provided delivery and retail
                                     standardization training to area managers of Delivery

4
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if supervisors
are matching workhours to workload, time attendance reports, office configuration, and use of authorized overtime.
Units must achieve a score of 95 or greater to achieve certification.
5
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total number of
workload service credits attributed to the facility. The components of the credits are based on a combination of the
responsibilities of the postmaster, the number of employees, the size of the facility and various operations performed
within each post office.
6
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to more closely align actual to standard hours, reduce overtime, and reduce
auxiliary assistance hours. Units must achieve a score of 85 or greater to achieve certification.
7
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result in closer
alignment of actual hours to budgeted hours. Function 4 (customer service) SOP teams complete the on-site reviews
and an Integrated Operations Business Plan Committee provides critical support to ensure attainment of major
organizational targets.



                                                            2
Delivery and Retail Standard Operating Procedures –                                                DR-MA-06-007
 Southeast Area


                                  Support Programs on September 8 and 9, 2005. In
                                  addition, Postal Service Headquarters issued a
                                  memorandum on October 13, 2005, to each area outlining
                                  the area’s responsibility for training managers on the SOP.
                                  Each area was responsible for training districts by October
                                  31, 2005. The districts were responsible for completing
                                  training to all levels of management by November 15, 2005.
                                  Further, Postal Service Headquarters requested that each
                                  area establish a review process to validate whether the
                                  SOP were adopted to ensure consistent implementation.
                                  Finally, Postal Service Headquarters informed area officials
                                  that the “vital few” list requires their attention and
                                  monitoring, which includes action plans to correct
                                  performance issues in city and rural delivery and Function 4
                                  operations.

    Objective, Scope, and         Our overall objective was to assess implementation of
    Methodology                   Delivery and Retail SOP in the Southeast Area.
                                  Specifically, we determined whether Southeast Area
                                  officials have implemented SOP in city and rural delivery
                                  and Function 4 operations. The scope of this review
                                  focused on whether area officials implemented the SOP at
                                  the area level and at selected districts and delivery and
                                  retail units within the area. We did not determine the
                                  effectiveness of the implemented SOP, but plan to perform
                                  future reviews and identify opportunities to increase
                                  revenue, reduce costs, and improve customer service.

                                  We visited postal headquarters and the Southeast Area to
                                  interview management officials and obtain performance
                                  data. We judgmentally selected the Central Florida and
                                  Tennessee Districts and XXXXXXX Branch, XXXXXXXXX
                                  XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX delivery and
                                  retail units to review based on discussions with Postal
                                  Service Headquarters Delivery and Retail officials and
                                  review of FY 2006 delivery and retail performance data for
                                  week 10.8 We reviewed and analyzed performance data
                                  obtained from Postal Service systems from October 2005
                                  through May 2006 and discussed the results with postal
                                  officials. 9 We relied on data from these systems to conduct
                                  interviews and analysis. However, we did not directly audit
8
  Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning with week 19.
9
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and week
34 year-to-date.



                                                        3
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-007
 Southeast Area


                                the systems, but discussed with Postal Service officials the
                                relevance of the data to delivery and retail performance
                                during our fieldwork.

                                We conducted this review from January through
                                September 2006 in accordance with the President’s Council
                                on Integrity and Efficiency, Quality Standards for
                                Inspections. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           The OIG has issued 12 audit reports related to delivery and
                                retail operations. While none of these reports are directly
                                related to our objective, they do identify opportunities to
                                improve management of delivery and retail operations. The
                                details of the reports are included in Appendix A.




                                                      4
Delivery and Retail Standard Operating Procedures –                                                  DR-MA-06-007
 Southeast Area


                                                  RESULTS
 Implementation of                 Southeast Area, selected districts and delivery and retail
 Standard Operating                unit officials implemented the SOP in city and rural delivery
 Procedures in the                 and Function 4 (customer service) operations which
 Southeast Area                    included:

                                       •    Completing SOP training between October and
                                            November 2005, for supervisors and managers
                                            responsible for city and rural delivery and Function 4
                                            operations at the district and unit levels.10

                                       •    Developing action steps for units identified as “vital
                                            few.”

                                       •    Outlining future plans to complete reviews on the
                                            remaining AMSOP, RDSOP, and Function 4
                                            Business Review locations by September 30, 2006.

                                   Southeast Area officials certified 29 percent (79 of 275)11 of
                                   their Level 22 and above DOIS sites under AMSOP. During
                                   FY 2006, week 34 year-to-date, the city delivery office hours
                                   (percent to standard) exceeded standard workhours by
                                   97.93 percent. This was a decrease in hours from week 19
                                   year-to-date, when the office hours exceeded the standard
                                   hours by 98.88 percent. During this same period, the
                                   delivery per hour percentage exceeded the same period last
                                   year percentage by 1.49 percent. This was a decrease from
                                   week 19 year-to-date, when the delivery per hour
                                   percentage exceeded the same period last year percentage
                                   by 2.01 percent.12

                                   Further, area officials had certified 46 percent (360 of 781)13
                                   of their rural units. During FY 2006, week 34 year-to-date,
                                   rural delivery total actual workhours exceeded standard
                                   workhours by 4.15 percent. This was a decrease from week
                                   19 year-to-date, when the actual hours exceeded the
                                   standard hours by 5.04 percent.

10
   The area conducted a leadership meeting for all Executive Administration and Salary (EAS) managers in city and
rural delivery and Function 4 operations. In addition, the SOP were placed on the area’s website.
11
   This data is current as of May 2006. The Southeast Area set a target goal of certifying 23 Level 22 and above
DOIS sites per month during FY 2006. Southeast Area officials had a target goal to certify 184 Level 22 and above
DOIS sites by May 2006.
12
   We are planning a future review on city carrier street performance.
13
   This data is current as of May 2006. The Southeast Area set a target goal of certifying 87 rural delivery units
during FY 2006. Southeast Area officials had a target goal to certify 435 rural delivery units’ sites by May 2006.



                                                         5
Delivery and Retail Standard Operating Procedures –                                        DR-MA-06-007
 Southeast Area



                                      Finally, area officials had conducted Function 4 Business
                                      Reviews at 51 percent (154 of 304) of their planned
                                      locations.14 During FY 2006, week 34 year-to-date,
                                      Function 4 total earned hour variance was 1.27 million
                                      workhours. This was an increase from week 19 year-to-
                                      date when the earned hour variance was 653,883
                                      workhours. During the same period, the window staffing
                                      efficiency for week 34 was 79.5 percent. This was a
                                      decrease from week 19 when the window staffing efficiency
                                      was 81.1 percent.

                                      Based on our review of the city and rural delivery and
                                      Function 4 SOP, the Southeast Area implemented each
                                      component of the SOP except for selected aspects of
                                      AMSOP, RDSOP, Function 4 Business Reviews, and Retail
                                      Data Mart Window Operations Survey (RDM WOS). (See
                                      Appendix B.) Officials implemented corrective action during
                                      our review to improve the Function 4 Business Review and
                                      RDM WOS components.

                                      The AMSOP component needs improvement because area
                                      officials did not review and approve corrective action steps
                                      for “vital few” units that do not achieve AMSOP certification.
                                      In addition, the RDSOP area needs improvement because
                                      area officials had not identified all units with 10 or more rural
                                      routes for certification under the RDSOP nor the routes for
                                      self-reviews. As a result, the Postal Service goal of
                                      improving units’ efficiency in an evaluated workload
                                      environment and alignment of actual to standard hours
                                      could be adversely impacted.

                                      Additionally, area officials were continuing to address the
                                      challenges associated with the “vital few” performers, which
                                      include developing action steps for units identified as “vital
                                      few.” Officials expressed concern that the SOP used to
                                      identify and rank “vital few” units did not include an
                                      evaluation of delivery units based on equal size and
                                      complexity. We recognize area officials’ concern and plan
                                      to address this issue in the capping report to postal
                                      headquarters officials.




14
     This data is current as of May 2006.



                                                        6
Delivery and Retail Standard Operating Procedures –                                  DR-MA-06-007
 Southeast Area




 Morning Standard               Although the Southeast Area implemented the SOP, area
 Operating                      officials did not adequately review and approve corrective
 Procedures                     action plans for “vital few” units that did not achieve AMSOP
                                certification.

                                The two delivery units visited in the Central Florida District
                                were not AMSOP certified and did not have a corrective
                                action plan to address the improvement areas and achieve
                                certification. Area and district officials stated that they have
                                made AMSOP requirements part of their overall strategies
                                for FY 2006. Area and district officials discuss unit status at
                                area operations meetings and continue to monitor progress.
                                However, the officials did not adequately review, approve,
                                and monitor completion of action plans for level 22 and
                                above units to achieve AMSOP certification status by the
                                end of FY 2006. As a result, the Postal Service goal of
                                improving units’ efficiency in an evaluated workload
                                environment and alignment of actual to standard hours
                                could be adversely impacted.

                                AMSOP was implemented nationally during FY 2005 for city
                                delivery units to standardize daily city carrier functions to
                                align actual workhours to base workhours. The FY 2006
                                goal is that all level 22 and above DOIS sites become
                                AMSOP certified by September 30, 2006. In order to have
                                an effective AMSOP process, officials must work jointly to
                                create and establish procedures for daily commitments
                                towards each other’s success. The expectation is that “vital
                                few” units will develop area approved action plans for
                                improvement to avoid being on the “vital few” list the next
                                quarter and to help them achieve certification status.

                                During the review, district officials followed-up on the units
                                and developed a corrective action plan to certify the units by
                                the end of FY 2006.




                                                      7
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-007
 Southeast Area




 Recommendation                 We recommend the Vice President, Southeast Area, direct
                                the Area Manager, Delivery Programs Support to:

                                1. Review, approve, and monitor completion of corrective
                                   action plan steps for “vital few” units to achieve AMSOP
                                   certification.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       Management completed site visits to each district to review
                                corrective action plans and to make certain corrective action
                                plans are executed properly. Management provided
                                additional details in subsequent discussions regarding the
                                planned oversight process that included assigning a
                                designee at the area level to: (1) provide training to district
                                offices and delivery units, (2) require district offices to
                                submit corrective action plans to the area for review when
                                delivery units do not achieve AMSOP certification, and
                                (3) track the progress of the corrective action plans to verify
                                completion.

 Evaluation of                  Management’s comments are responsive to the
 Management’s                   recommendation and the actions taken should correct the
 Comments                       issue identified in the finding.




                                                      8
Delivery and Retail Standard Operating Procedures –                                     DR-MA-06-007
 Southeast Area




 Rural Delivery                 Area officials had not identified all units with 10 or more
 Standard Operating             rural routes for certification for their districts or the routes for
 Procedures                     self-reviews. This occurred because management’s primary
                                focus was reviewing and certifying rural units on the “vital
                                few” list.

                                Postal Service Headquarters officials established RDSOP
                                reviews as a national requirement for FY 2006, to help
                                create a consistent understanding of the requirements
                                necessary for well-run, highly efficient rural delivery
                                operations. The review focuses on improving efficiency in
                                an evaluated workload environment, which will more
                                closely align actual to standard hours, reduce overtime,
                                and reduce auxiliary assistance hours. The RDSOP
                                requires 75 percent of all units identified as “vital few” and
                                units with 10 or more rural routes to achieve certification
                                status by September 30, 2006. Units with less than 10 rural
                                routes and not part of “vital few” will complete a self-review.

                                As a result, units not identified for review could adversely
                                affect the Postal Service goal of improving efficiency in an
                                evaluated workload environment and alignment of actual to
                                standard hours.

 Recommendation                 We recommend the Vice President, Southeast Area, direct
                                the Area Manager, Delivery Programs Support to:

                                2. Identify all units with 10 or more rural routes for
                                   certification and routes for self-review, and then monitor
                                   the results.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       Management developed a spreadsheet to identify all units
                                with 10 or more rural routes for certification and routes for
                                self-review. Additionally, management will use the
                                spreadsheet to track and monitor RDSOP certification
                                results.

 Evaluation of                  Management’s comments are responsive to the
 Management’s                   recommendation and the actions taken should correct the
 Comments                       issue identified in the finding.




                                                      9
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-007
 Southeast Area


 Function 4 Business            Central Florida and Tennessee District officials had not
 Reviews                        assembled a Function 4 team or developed the Integrated
                                Operations Business Plan Committee to prevent review
                                delays and achieve the business plan goals. Central Florida
                                District officials stated that weather conditions was a
                                contributing factor in the delays associated with assembling
                                a team of qualified individuals who could devote adequate
                                time to complete the scheduled Function 4 reviews for first
                                quarter FY 2006. Tennessee District officials delayed
                                Function 4 reviews in Quarter I of FY 2006, due to staff
                                turnovers associated with the removal of the previous
                                manager of Delivery and Customer Service Programs.
                                Further, neither district’s officials had established formal
                                Integrated Operations Business Plan Committees, but
                                participated in informal meetings on an “as needed basis.”

                                Postal Service Headquarters officials established Function 4
                                reviews as a national requirement for FY 2006, to help
                                create a consistent understanding of the requirements
                                necessary for well-run, highly efficient customer service
                                operations. Also, the Function 4 reviews target postal
                                facilities for on-site reviews where opportunities exist for
                                workhour reductions. Function 4 SOP require utilization of
                                the Business Review plan to establish on-site review steps
                                that ultimately lead to a standardized process cycle, savings
                                opportunities, performance achievements, and applied
                                performance expectations. The on-site review focuses on
                                improving efficiency in an evaluated workload environment,
                                which will result in closer alignment of actual to budgeted
                                hours. Function 4 review teams complete the on-site
                                reviews and an Integrated Operations Business Plan
                                Committee provides critical support to ensure attainment of
                                major organizational targets.

                                Central Florida officials implemented corrective action
                                during the review, which included hiring two retired postal
                                employees familiar with the review process to complete the
                                scheduled Function 4 reviews and ensure the district
                                achieves its business plan goals by the end of the fiscal
                                year. In addition, Tennessee District officials designated an
                                Acting Manager, Delivery and Customer Services Program,
                                during the review, to oversee the completion of their
                                district’s scheduled Function 4 reviews and establish a
                                committee to ensure achievement of the plan goals by the
                                end of the fiscal year. Since officials implemented



                                                      10
Delivery and Retail Standard Operating Procedures –                              DR-MA-06-007
 Southeast Area


                                corrective action during the review, we are not making any
                                recommendations on Function 4 Business Reviews.




                                                      11
Delivery and Retail Standard Operating Procedures –                                                         DR-MA-06-007
 Southeast Area




 Retail Data Mart                    XXXXXXXXX Post Office unit officials did not use the RDM
 Window Operations                   WOS staffing graph. Officials indicated they did not utilize
 Survey                              the graphs due to their unfamiliarity after recent
                                     implementation in November 2005. However, officials did
                                     review informal, internal reports detailing earned versus
                                     actual hour performance and staffed the windows according
                                     to historical knowledge of window customer activity, plan
                                     budget hours, and the informal earned versus actual hour
                                     performance reports provided by district level management.

                                     The RDM WOS tool is used during standardized Function 4
                                     on-site reviews at retail postal units. The tool provides
                                     information on the retail workload based on the number and
                                     types of transactions conducted at the retail counter. 15
                                     Postal officials convert the retail workload information to
                                     earned workhour data. Also, the results assist management
                                     in determining productivity levels and the proper staff
                                     scheduling to meet customer demands and attain
                                     established annual workhour budget goals. The RDM WOS
                                     provides information on ranking opportunity in retail based
                                     on actual performance versus earned workhours.

                                     Officials indicated that they would continue to place
                                     emphasis on the SOP and using the RDM WOS staffing
                                     graph in the unit location. As of June 1, 2006, officials
                                     implemented use of the RDM WOS staffing graph tool.
                                     Since officials implemented corrective action during the
                                     review, we are not making any recommendations on RDM
                                     WOS.




15
  The types of transactions include Priority and Express Mail®, stamp and money order purchases, passports, and
mailboxes. Postmasters assign mobile units, at their discretion, to retail postal units in order to provide limited retail
activity in remote locations such as retirement homes and community centers.



                                                            12
Delivery and Retail Standard Operating Procedures –                                   DR-MA-06-007
 Southeast Area




 “Vital Few” Lists              Area officials were continuing to address the challenges
                                associated with the list of “vital few” performers. Southeast
                                Area officials indicated that Postal Service Headquarters
                                officials provided the area with the weekly city delivery “vital
                                few” list; however, they received no information on rural
                                delivery and the results of the Function 4 reviews. Area
                                officials were obtaining the rural delivery “vital few” lists
                                information from the Enterprise Data Warehouse (EDW)
                                and providing the results to district officials. Area officials
                                expressed concern about not receiving the rural delivery
                                “vital few” and Function 4 review data from Postal Service
                                Headquarters officials quarterly. Officials attempted
                                tracking the status of the Function 4 reviews during the first
                                quarter of FY 2006, but were unable to continue the process
                                due to the voluminous amount of data for the unit locations
                                in the second quarter. We recognize area officials’ concern
                                and plan to address this issue in the capping report to postal
                                headquarters officials.

                                Additionally, officials were conducting weekly
                                teleconferences with district officials on the “vital few” units.
                                These teleconferences included discussions to develop and
                                approve action steps, communicate management
                                expectations, and determine the causes for the
                                discrepancies. Officials assigned managers of Postal Retail
                                Operations in each district to identify “vital few” units and
                                oversee retail performance. They also provided placards
                                and other tools to delivery unit managers to improve labor
                                distribution code charges. Officials also plan to continue
                                placing emphasis on the SOP standardization with the “vital
                                few,” which will make the process easier for officials to
                                identify work outside standard time allowances.

                                Officials stated that although they were making efforts to
                                address the challenges associated with the “vital few,” low
                                performers will continue to exist because the SOP used to
                                identify and rank “vital few” units did not include an
                                evaluation of delivery units based on equal size and
                                complexity. Specifically, area officials stated that the
                                methodology used to rank units on the delivery per hour




                                                      13
Delivery and Retail Standard Operating Procedures –                                                  DR-MA-06-007
 Southeast Area



                                   performance indicator did not take into consideration units in
                                   high growth areas (significant increases in possible
                                   deliveries) when comparing the performance to same period
                                   last year.

                                   Additionally, officials stated that the delivery methodology
                                   used to rank units using poor percent to standard scores did
                                   not take into consideration unit size. Further, officials stated
                                   that the methodology used to rank units based on the
                                   window staffing efficiency indicators utilizes inaccurate
                                   information. They stated the information is inaccurate due
                                   to incorrect charging of labor distribution codes, inconsistent
                                   use of the Point-of-Service ONE16 machines to record
                                   number and types of transactions by time of day, and
                                   conflicts with the wait-time-in-line goals. We recognize area
                                   officials’ concerns regarding identification and ranking of
                                   units incorporating size and complexity of unit locations, and
                                   we plan to address these issues in the capping report to
                                   Postal Service Headquarters.




16
   The Postal Service uses the Point-of-Service (POS) ONE systems to increase operating efficiency in the collection
of the number and types of transactions conducted at the retail counter for the retail associates by time of day. We
are planning a future review of POS.



                                                         14
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-007
 Southeast Area


                                      APPENDIX A
                                 PRIOR AUDIT COVERAGE
City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-06-
003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District. Delivery
facility supervisors and managers did not adequately match workhours with workload.
We projected the sample results for a total of 68,177 unjustified hours over the 5-month
period from January 1 through May 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $765,487). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use Managed Service Points (MSP) to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation Audit
(Report Number FF-AR-06-096, dated March 20, 2006). The report outlined that at
28 of the 36 post offices, stations, and branches where AMSOP applied, management
had begun implementation. Of those, 11 had obtained certification and 17 were at
various stages of certification. At the time of our work, eight units had not begun
implementation. Several factors contributed to units not being certified. These factors
included issues with the mail arrival agreement with the processing and distribution
plant, posting and following the AMSOP, and Function 4 activities. We made no
recommendations in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002, dated
February 8, 2006). The report outlined opportunities to improve the management of city
letter carrier operations in the Detroit District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 59,208 unjustified hours over the 5-month period from
January 1 through May 31, 2005, that were not supported by volume or workload (total
unrecoverable costs of $723,586). We also noted that supervisors and managers did
not always view DOIS reports in a timely manner to manage operations, consistently
use MSP to monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined opportunities to
improve the quality of Address Management System data and put $988,945 of
processing and delivery costs over the next 10 years to better use. Management
agreed with our findings and recommendations and the $988,945 in funds put to better
use.

City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019, dated
September 29, 2005). The report outlined opportunities to improve the management of



                                                      15
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-007
 Southeast Area


city letter carrier operations in the Chicago District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 78,248 unjustified hours over the 5-month period from
September 1, 2004, through January 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $2,020,200). We also noted supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-013,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Santa Ana District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 83,864 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $2,127,852). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-014,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the San Diego District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 53,835 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $1,423,935). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-009,
dated December 2, 2004). The report outlined opportunities to improve management of
city letter carrier operations in the Rio Grande District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected that the
three delivery facilities had 5,318 unjustified hours (at an estimated cost of $193,947)
not supported by volume or workload over a 5-month period. We reported 2,543 of the
unjustified hours – or $92,762 – as unrecoverable costs. We also noted that
supervisors and managers did not effectively use DOIS to manage daily operations, and
delivery unit supervisors and managers did not consistently perform street management
or effectively use MSP to monitor city letter carriers’ street time to correct negative
trends.



                                                      16
Delivery and Retail Standard Operating Procedures –                              DR-MA-06-007
 Southeast Area



Function 4 – Customer Service Operations (Report Number DR-AR-04-014, dated
September 30, 2004). The Postal Service can improve the effectiveness and efficiency
of the Function 4 customer service process in meeting or exceeding its program goals
of monitoring and measuring the potential savings of customer service operations.
Specifically, Postal Service managers could improve customer service operations by
fully utilizing the standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number DR-AR-04-
005, dated July 26, 2004). The report stated that opportunities exist to improve Dallas
District city letter carrier office preparation operations. Specifically, impediments existed
that adversely affected delivery supervisors’ and managers’ ability to adequately match
workhours with workload. In addition, city letter carriers’ work activities were not always
appropriate to ensure they departed the delivery unit as scheduled. Further,
supervisors and managers did not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth District
(Report Number DR-AR-04-001, dated June 22, 2004). The report stated that street
management and route inspections were generally efficient and effective at the
XXXXXX and XXXXXXX Stations. Delivery unit supervisors monitored city delivery
carriers’ street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the XXXXXX Station delivery unit, post route adjustment procedures were not followed
to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report Number
TD-AR-03-011, dated July 28, 2003). The report stated that early reporting wasted
carriers’ morning time, and exposed the Baltimore District to potential unnecessary
evening overtime costs. It was noted supervisors and managers were not using DOIS
to manage carrier schedule, and, consequently, could not use the system to evaluate
carrier scheduling or take corrective action.




                                                      17
Delivery and Retail Standard Operating Procedures –                                     DR-MA-06-007
 Southeast Area



       APPENDIX B. SOUTHEAST AREA IMPLEMENTATION OF
    DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES

                                       Southeast Area
                                          Officials           Dates        SOP Areas
                         SOP            Implemented            SOP            for
                         Areas           Procedures        Implemented    Improvement
                 City Delivery
                 AMSOP                      Yes              10/2005              Yes
                 Integrated
                 Operations                 Yes              10/2005              No
                 Delivery Point
                 Sequencing                 Yes              10/2005              No
                 Collection Point
                 Management                 Yes              10/2005              No
                 Scanning
                 Performance                Yes              10/2005              No
                 Matching
                 Workhours to
                 Workload                   Yes              10/2005              No
                 Volume Recording           Yes              10/2005              No
                 Route Evaluations
                 and Adjustments            Yes              10/2005              No
                 “Vital Few” Service
                 Improvements               Yes              10/2005              No
                 Rural Delivery
                 RDSOP                      Yes              10/2005              Yes
                 Growth and
                 Delivery Point
                 Mgmt                       Yes              10/2005              No
                 Function 4
                 *Function 4
                 Business Review            Yes              10/2005              No
                 *RDM WOS                   Yes              10/2005              No

                *Corrective action was taken during the review.

                Source: Information provided by postal Southeast Area officials




                                                      18
Delivery and Retail Standard Operating Procedures –        DR-MA-06-007
 Southeast Area


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                      19
